                                                                Issue Date April 23,   2007

                                                                Audit Report Number
                                                                       2007-BO-1005




TO:        Robert Paquin, Director, Office of Community Planning and Development,
             Boston Regional Office, 1AD



FROM:
           John Dvorak, Regional Inspector General for Audit, 1AGA

SUBJECT: The City of New Bedford, Massachusetts, Did Not Meet Certain Requirements
           of HUD’s Community Development Block Grant Program


                                  HIGHLIGHTS

 What We Audited and Why

             As part of our annual plan, we audited the Office of Housing and Community
             Development, City of New Bedford, Massachusetts’ (City) administration of its
             Community Development Block Grant (CDBG)) and HOME Investment
             Partnerships (HOME) programs. Our audit objective was to determine whether
             the City complied with U.S. Department of Housing and Urban Development
             (HUD) regulations in administering its CDBG and HOME programs.



 What We Found

             The City generally administered its CDBG and HOME programs in accordance
             with HUD regulations. However, it did not always ensure that its subrecipients
             followed HUD requirements or met the program objectives of the subrecipent
           agreements. The City failed to ensure that two of its subrecipients followed HUD
           requirements for full and open competition regarding procurements for
           construction work. It also did not ensure that another subrecipient attained its
           program objectives of issuing the required number of loans and creating the
           required number of new jobs. In addition, the City did not ensure that this
           subrecipient properly collateralized CDBG funds on deposit in the same bank, or
           made loans that did not involve conflicts of interest. These problems occurred
           because the City did not always adequately monitor subrecipient activities or
           failed to ensure that its subrecipents always took corrective action. As a result,
           there is a lack of assurance that subrecipient procurements were fair and equitable
           and that the most favorable contract prices were obtained for $750,000 in
           construction funding. Also, more than $1 million in CDBG funding for loans and
           job creation may not have been the best use of HUD funds, CDBG funds totaling
           $188,177 were not adequately safeguarded against loss, and a subrecipient
           approved two loans that created apparent conflicts of interest.



What We Recommend


           We recommend that the director of the Office of Community Planning and
           Development in Boston require the City to (1) obtain a cost analysis for each
           subrecipient to support the $750,000 in CDBG funding provided for construction
           contracts, (2) ensure that the future use of CDBG funds creates the number of new
           jobs necessary to fulfill the requirements of past and current agreements to put
           current funding of $285,000 to better use, (3) obtain and provide evidence that
           CDBG funds in excess of Federal Deposit Insurance Corporation (FDIC) limits
           for the subrecipient are fully collateralized, and (4) ensure that the subrecipient
           establishes adequate policies addressing conflicts of interest including
           requirements for providing full disclosure.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
           or directives issued because of the audit.



Auditee’s Response


           We provided City officials with a draft audit report on March 21, 2007, and
           requested a response by April 4, 2007. We held an exit conference with City
           officials on March 29, 2007, to discuss the draft report, and we received their
           written comments on April 4, 2007. The City generally agreed with the facts,



                                            2
conclusions and recommendations in Findings 2, 3 and 4 of this report. The City
partially agreed with certain comments and conclusions contained in Finding 1.

The complete text of the auditee’s response, along with our evaluation of that
response, can be found in appendix B of this report.




                                 3
                              TABLE OF CONTENTS

Background and Objectives                                                               5

Results of Audit
        Finding 1: The City Did Not Ensure That Its Subrecipients Followed HUD          7
        Regulations in Their Procurement Processes
        Finding 2: The City Did Not Ensure That Its Subrecipient Met Requirements for   11
        Number of Loans Issued and Number of Jobs Created
        Finding 3: The City Did Not Ensure That Its Subrecipient Properly               14
        Collateralized Funds on Deposit in Excess of FDIC Limits
        Finding 4: The City Did Not Ensure That Its Subrecipient Established            16
        Procedures to Prevent Potential Conflicts of Interest

Scope and Methodology                                                                   19

Internal Controls                                                                       21

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use                  23
   B.   Auditee Comments and OIG’s Evaluation                                           24
   C.   Loans Issued That Created and Retained Jobs for Program Years 2003-2005         38
   D.   Quarterly Labor Status Reports                                                  40
   E.   Balances in Ten Bank Accounts at January 31, 2006                               41
   F.   Criteria                                                                        42




                                              4
                     BACKGROUND AND OBJECTIVES


The City of New Bedford, Massachusetts (City), receives annual Community Development
Block Grant (CDBG) program funds from the U.S. Department of Housing and Urban
Development’s (HUD) Office of Community Planning and Development. The CDBG program
is a flexible program that provides communities with resources to address a wide range of unique
community development needs. The City also receives HUD funding from the HOME
Investment Partnerships program (HOME) and the Emergency Shelter Grant program and
competitive funding from the Supportive Housing program. The City’s Office of Housing and
Community Development receives HUD funding on behalf of the City. The Office of Housing
and Community Development engages residents, nonprofit organizations, developers, and the
general public in articulating the office’s needs and priorities for expanding the stock of safe,
decent, and affordable housing; stimulating economic development; supporting programs and
services for community development; and revitalizing neighborhoods.

The CDBG and HOME programs are the primary sources of HUD income for the Office of
Housing and Community Development. From 2003 through 2005, the office received more than
$10.6 million in CDBG funds and $4.2 million in HOME funds. A primary requirement of the
CDBG program is that activities and/or services funded under the program meet one of three
national objectives. These objectives include activities that (1) benefit low-to-moderate-income
persons, (2) aid in the prevention or elimination of slums or blight, or (3) are designed to meet
community development needs having a particular urgency.

HOME is the largest federal block grant provided to state and local governments designed
exclusively to create affordable housing for low-income households. HOME provides formula
grants to states and localities that communities use—often in partnership with local nonprofit
groups—to fund a wide range of activities that build, buy, and/or rehabilitate affordable housing
for rent or homeownership or provide direct rental assistance to low-income people.

In addition to its public service subgrantees (subrecipients), the City’s Office of Housing and
Community Development has four economic development subrecipients. The largest of these is
the New Bedford Economic Development Council (Council), which is responsible for most of
the economic development in the City. The Council has acted as a catalyst for the City’s
economic development growth by working with various local constituent groups to attract new
businesses and job opportunities and to improve the quality of life for City residents. In the
Council’s subrecipient agreements with the Office of Housing and Community Development, it
received more than $1 million in HUD funds for program years 2003, 2004, and 2005 as a
supplement to the salaries of staff members who process and monitor loan programs. One of the
primary requirements under these agreements is to use the Community Economic Loan Fund
(CDBG entitlement), Micro-Enterprise Loan Fund (CDBG entitlement), Fishing Industry
Revolving Loan Fund (grants available from the U. S. Economic Development Administration
[EDA]), and other funds to make loans available to qualifying firms and micro-businesses to
create new jobs in the City. As a condition of accepting the loans, the assisted businesses must
agree to submit quarterly job creation information.


                                                5
Our audit objective was to determine whether the City’s Office of Housing and Community
Development complied with HUD regulations in the administration of its CDBG and HOME
programs, including whether (1) the City had effective safeguards over HUD funds; (2) a
subrecipient, the Council, met specific program objectives of its agreements with the City,
regarding the number of loans to be issued and the number of new jobs to be created, and
whether job creation documentation provided by the Council met the requirements of the
subrecipient agreements, and 3) there were any conflict-of-interest issues relative to economic
development loans.




                                                6
                                         RESULTS OF AUDIT


Finding 1: The City Did Not Ensure That Its Subrecipients Followed
HUD Regulations in Their Procurement Processes
The City did not ensure that two of its subrecipients followed HUD requirements for full and
open competition for their construction work procurements. For one of the subrecipients, the
independent cost estimate prepared before the receipt of bids or proposals was inadequate and
did not ensure that rehabilitation costs were reasonable. In addition, both subrecipients
improperly proceeded with the procurements, despite an inadequate response to their
solicitations, and failed to prepare the necessary cost analyses when adequate price competition
was lacking. These deficiencies occurred because the City did not maintain an effective system
of controls to adequately monitor the subrecipients’ procurement and contracting processes. As
a result, there is a lack of assurance that the procurement process was fair and equitable and that
the most favorable contract prices were obtained for $750,000 in CDBG funding provided for the
construction work.


    The First Subrecipient’s
    Independent Cost Estimate Was
    Inadequate


                    The first subrecipient did not follow proper procedures before awarding its
                    procurement noncompetitively. The work under the contract involved the first
                    phase of a planned restoration and renovation of the subrecipient’s operations. 1
                    However, the independent cost estimate for this procurement was inadequate and
                    had limited usefulness in ensuring that rehabilitation costs were reasonable. The
                    cost estimate of $802,616 submitted by the owner’s architect pertained to the
                    overall restoration and renovation of the subrecipient’s operation and was based
                    on a preliminary scope of work. Although the first phase work was reportedly
                    included in this estimate, the estimate did not specifically identify costs for the
                    first phase. We contacted the architect to obtain the basis for the first phase’s
                    estimated costs included in the architect’s written bid assessment (dated February
                    22, 2005) because we could not reconcile certain written assessment costs to the
                    overall estimate. However, the architect failed to provide us the requested
                    information. A separate cost estimate should have been performed for the first
                    phase construction work.

                    The director of the City’s Office of Housing and Community Development
                    informed us on February 9, 2007 that the first phase cost estimate prepared by the
                    owner’s architect totaled $365,272 and represented roof repairs, gutters, down

1
    The City committed $250,000 for the first phase and did not provide any funding beyond the first phase.


                                                           7
           spouts, chimney repairs, dormer repair, and replacement of the roof balustrade.
           The director further stated that this cost estimate was reflective of the work
           included in the invitation to bid. However, the cost estimate was not completely
           reflective of what was included in the invitation to bid or the bid submitted by the
           sole bidder. The invitation to bid and the bid submitted by the sole bidder
           included additional cost items, such as front porch repairs, painting, and masonry
           pointing that were not included in the cost estimate, as described by the City’s
           director on February 9, 2007. In addition, the director noted that the base bid of
           $339,525 from the contractor (sole bidder), referred to in the architect’s written
           assessment of that bid, was below the architect’s estimate of $365,272. However,
           we do not consider this a fair comparison because the cost estimate included
           additional costs associated with the reconstruction of the roof balustrade that were
           not included in the base bid of $339,525. Based on these inconsistencies, we
           believe that the owner’s architect should have prepared a revised cost estimate to
           better reflect the scope of work. The City’s director agreed that that the owner’s
           architect should have completed a second cost estimate.

           The second subrecipient did follow proper procedures in developing a cost
           estimate for construction of a two-level building. The architect’s estimate
           conformed to the contract and bid quotation. Also, the bid of $1,026,000
           submitted by the sole bidder was below the subrecipient’s cost estimate of
           $1,178,061. The job specifications clearly detail the scope of work to be
           performed and the quantity of materials to be used.

Subrecipients Were Awarded
Contracts without Full and
Open Competition


           Both subrecipients improperly proceeded with the procurements for construction
           contracts without adequate responses to their solicitations. The contracts awarded
           totaled $491,825 (first subrecipient) and $1,026,000 (second subrecipient), which
           included HUD funding of $250,000 and $500,000, respectively. These
           procurements were properly advertised, but in both instances, the subrecipients
           received only one bid and awarded the contracts to the sole bidder. For example,
           the first subrecipient’s register of bid documents demonstrates that eight
           contractors requested bid packages on the project and paid the $50 bid deposit,
           but only one bid was received. The work under the solicitation involved the first
           phase of a planned restoration and renovation of the subrecipient’s operations.
           The subrecipient’s decision to advertise the procurement in only the local
           newspaper may have limited the number of responsive bidders.

           The second subrecipient also did not follow proper procedures when it awarded a
           contract to the sole bidder for construction of a two-level building. The City
           reported that the subrecipient placed telephone calls to the five potential bidders
           in addition to a public advertisement to determine whether the contractors were



                                            8
             interested in bidding on the project. The subrecipient’s architect also reportedly
             contacted two companies in the Boston, Massachusetts, area and left messages.
             However, there was no evidence to substantiate these claims.

             HUD requires that for sealed bidding to be feasible, two or more responsible
             bidders must be willing and able to compete effectively for the business. Since
             only one bid was received for each of the procurements, it would have been
             prudent to readvertise the procurements to ensure that contracts were awarded in a
             maximum open and fair competitive manner in accordance with federal
             regulations. If the additional advertising failed to provide more than one bid, the
             City should have obtained a waiver from HUD to allow the contracts to be
             awarded noncompetitively.

             For contracts awarded through noncompetitive proposals, the subrecipient must
             show that another method of procurement was not feasible because either (1) the
             item or service was available from a single sole source, (2) an emergency existed
             precluding the use of competitive solicitation, (3) HUD had authorized awarding
             the procurements through noncompetitive proposals, or (4) after solicitation from
             a number of sources, competition was determined inadequate. Since none of
             these conditions was sufficiently met, the procurements should not have been
             awarded through noncompetitive proposals.


Subrecipients Failed to Perform
Cost Analysis


             Both subrecipients failed to perform a cost analysis. A cost analysis of bids
             received was necessary for the subrecipients to ensure that construction costs
             were reasonable, since adequate competition was lacking. Although the
             independent cost estimate received by the second subrecipient appeared adequate,
             there is a distinction between a cost estimate and a cost analysis. A cost estimate
             is based on historical costs, and is prepared before receiving bids or proposals. A
             cost analysis is performed on current price information and cost projections, and
             usually occurs after a bid or proposal has been received. The cost analyses were
             not completed in these instances because the City did not adequately enforce
             HUD procurement requirements.


Conclusion


             The subrecipients were required to promote full and open competition for all
             procurements to include preparing a proper cost estimate for each procurement
             before receiving bids or proposals. In addition, the subrecipients needed to
             perform a cost analysis when adequate price competition was lacking in



                                              9
          accordance with HUD regulations. Because the City did not ensure that the above
          requirements were met, it does not have complete assurance that the lowest
          possible prices were obtained for these contracts. These deficiencies occurred
          because the City did not maintain an effective system of controls, including
          adequate monitoring, over the subrecipients’ procurement and contracting
          processes. As a result of these deficiencies, the City cannot support that the costs
          for the $750,000 in CDBG funded contracts were reasonable.


Recommendations



          We recommend that the director of the Office of Community Planning and
          Development in Boston require the City to:

          1A.     Ensure that subrecipients comply with HUD requirements that bids be
                  solicited from an adequate number of contractors and awards be made to
                  the lowest responsive bidder.

          1B.     Ensure that subrecipients maintain adequate support showing that the cost
                  analyses were performed and the basis used to determine the reasonability
                  of the contracted amounts.

          1C.     Obtain a cost analysis for each subrecipient to support the $750,000 in
                  CDBG funding provided for construction costs.

          1D.     Provide technical assistance to ensure that the subrecipients follow
                  procurement regulations.




                                           10
                                       RESULTS OF AUDIT

Finding 2: The City Did Not Ensure That Its Subrecipient Met
Requirements for Number of Loans Issued and Number of Jobs Created

The City did not ensure that a subrecipient, the New Bedford Economic Development Council
(Council), met the program objectives of its subrecipient agreements for issuing the required
number of loans and creating the required number of new jobs. In addition, the City did not
ensure that the Council satisfied all of the quarterly reporting requirements for job creation as
provided in the subrecipient agreements. These deficiencies occurred because the City did not
enforce the terms of the agreements and did not provide adequate monitoring over the quarterly
reporting for jobs created. As a result, CDBG funding of more than $1 million provided to the
Council over a three-year period may not have been the best use of HUD funds. Also, without
comprehensive reporting, the City cannot be assured that a net gain in jobs is being achieved.


    The Council Failed to Issue the
    Loans or Create the New Jobs
    Required

                  The City provided the Council $1,050,000 in CDBG funds to administer a loan
                  program over a three-year period ($350,000 in fiscal year 2003, $350,000 in fiscal
                  year 2004, and $350,000 in fiscal year 2005). Two of the primary objectives
                  under this program were to provide loans to eligible companies and/or micro-
                  enterprises and to create new jobs through these loans.

                  From fiscal year 2003 through fiscal year 2005, the Council failed to issue the
                  required number of loans and create the required number of new jobs. Based on
                  the memorandums of agreement, employee income certifications, and other
                  documentation, the results attained were below the goals of 12 loans issued and
                  20 new jobs created for each year as shown in the program objectives of the
                  subrecipient agreements. The Council issued only 10 loans in 2003, nine loans in
                  2004, and 11 loans in 2005 for a total of 30 of the required 36 loans. Also, the
                  Council created only 39 new jobs—16 new jobs in 2003, five new jobs in 2004,
                  and 18 new jobs in 2005—through 15 of those 30 loans. Although the Council
                  retained 31 existing jobs through an additional three of the 30 loans, it did not
                  meet the primary objective of creating 60 new jobs. The remaining 12 of the 30
                  loans consisted of 11 micro-enterprise loans and one area benefit loan (see
                  appendix C). 2

2
  For micro-enterprise businesses, no job creation documentation is necessary if the owner is a low- or moderate-
income person. For area benefit loans, no job creation documentation is necessary if the business is available to all
residents in a particular area, where at least 51 percent of the residents are of low and moderate income.


                                                         11
           The Council had little difficulty in issuing the required number of loans and creating
           the required number of jobs before fiscal year 2003. However, the City did not take
           immediate action after the Council failed to achieve its goals for loans issued and
           new jobs created in fiscal year 2003. It continued to provide funding to the Council
           for three additional years (2004 to 2006) despite the Council’s failure to meet the
           goals of the subrecipient agreements in each of the previous years (2003 to 2005).
           The Council did perform some outreach efforts to market its loan programs and
           search out businesses to create new jobs; however, these efforts were short of the
           goals stated in the written agreements with the City.

The City’s Quarterly Reporting
Requirements Were Not
Satisfied

           The Council was required to provide the City information on jobs created and/or
           retained on a quarterly basis. With the exception of the quarterly labor status
           reports, the Council satisfied all of the City’s quarterly reporting requirements for
           monitoring job creation/retention initiatives. The quarterly labor status reports
           provide information to identify jobs created or retained for businesses receiving
           funds from the Council and distinguish new jobs and new hires from those already
           in existence. However, the businesses that received loans from the Council for the
           purpose of creating and/or retaining jobs either did not submit the required reports to
           the Council or did not submit them in a timely manner.

           Of the 18 businesses reported by the City as creating and/or retaining jobs over the
           three-year period, 10 businesses either had not submitted reports or had not done so
           in a timely manner. The delinquent reports were generally dated well past the
           reporting period. Another business had submitted an undated report, and two
           businesses had submitted the required reports, while the five remaining businesses
           were not required to submit reports due to the limited timeframe between date of
           loan issuance and final report date (see appendix D).

           These reports are the primary mechanism that the Council used to monitor job
           creation and to ensure that workers were being hired for new positions rather than
           vacated positions. The hiring of new employees does not necessarily equate to a net
           gain in the number of full-time permanent employees because the business may have
           had turnover in existing jobs. The report requirements include reporting the number
           of employees of the business at the commencement of the loan and the number of
           employees at the beginning of each quarterly reporting period and the number of
           full-time/part-time jobs created each quarter be updated. This will provide assurance
           to the Council and the City that the businesses are creating new jobs rather than
           filling vacated positions.




                                             12
Conclusion


             The CDBG funding of more than $1 million that the City provided to the Council
             may not have been the best use of HUD funds because the Council failed to achieve
             its goals for the creation of new jobs and the number of loans issued. Also, without
             the submission of the quarterly labor status reports or their submission in a timely
             manner, the Council and the City cannot adequately evaluate whether a net gain in
             jobs has been achieved. These deficiencies occurred because the City did not
             enforce the terms of the subrecipient agreements and did not provide adequate
             monitoring over the quarterly reporting of jobs created. The Council advised the
             Office of the Inspector General (OIG) that it will take steps to improve its reporting.
             In addition, the City needs to improve its oversight to ensure comprehensive
             reporting.


Recommendations


             We recommend that the director of the Office of Community Planning and
             Development in Boston require the City to

             2A. Ensure that the Council uses future CDBG funds to create the number of new
                 jobs necessary to fulfill the requirements of past and current agreements to put
                 current funding of $285,000 to better use.

             2B. Consider imposing sanctions or cease funding the Council should the
                 Council fail to fulfill the requirements of past and current subrecipient
                 agreements.

             2C. Ensure that the Council continues its outreach efforts to market its loan
                 programs and to attract new businesses with the purpose of creating new jobs.

             2D. Improve its control structure to ensure that the Council properly submits the
                 quarterly labor status reports.




                                               13
                                        RESULTS OF AUDIT

Finding 3: The City Did Not Ensure That Its Subrecipient Properly
Collateralized HUD Funds on Deposit in Excess of FDIC Limits
The City did not ensure that a subrecipient, the New Bedford Economic Development Council
(Council), properly collateralized HUD funds in excess of the Federal Deposit Insurance
Corporation (FDIC) limits. This occurred because the City did not take into account all of the
federally provided funds on deposit by the Council in the same bank and reviewed only CDBG
accounts which at year end were below the FDIC limit. As a result, $188,177 in CDBG funds
was not protected against loss in case of a bank failure.


 Federal Funds in the Aggregate
 Were Not Protected Against
 Loss

              According to FDIC regulations, depositors are protected against the loss of their
              insured deposits if an FDIC-insured bank fails. If a depositor’s accounts at an
              FDIC-insured bank are less than or equal to $100,000, the funds are fully insured.
              When deposits exceed the FDIC insurance limit of $100,000, the depositor must
              request that the bank pledge eligible collateral to secure the uninsured amount.

              As of January 2006, the Council had 10 separate federal checking accounts at
              Slade’s Ferry bank, totaling $1,014,624. The month of January 2006 was the
              highest month-end balance from July 2005 through June 2006. Of this total,
              $914,624 (with $100,000 insured by the FDIC) was not secured and, therefore,
              not protected against loss (see appendix E). For the 12-month period ending June
              30, 2006, uninsured funds in the aggregate exceeded FDIC limits every month.
              Month-end balances in excess of FDIC limits ranged from a high of $914,624 to a
              low of $147,329.
                  $1,200,000

                  $1,000,000

                   $800,000

                   $600,000                        Unprotected Funds
                   $400,000

                   $200,000
                                                Funds protected by FDIC Insurance
                        $-
                                                                                                            06
                                                  5




                                                                       06




                                                                                                       6
                                    05


                                           05




                                                         05


                                                                05




                                                                               06



                                                                                      6


                                                                                             6
                              5




                                                 t -0




                                                                                                   -0
                                                                                            r -0
                             l-0




                                                                                     r -0
                                                                      n-




                                                                                                           n-
                                   g-


                                           p-




                                                        v-


                                                               c-




                                                                              b-




                                                                                                   ay
                         Ju




                                                Oc




                                                                                            Ap
                                                                                    Ma
                                                        No


                                                              De




                                                                                                           Ju
                                   Au


                                         Se




                                                                     Ja


                                                                            Fe




                                                                                                   M




                                                        14
                 Although the Council’s staff noted that they were aware the assets were not fully
                 insured, the Council made only limited efforts to correct the cited deficiency and
                 establish a proper method to collateralize the funds. In addition, the City monitored
                 the CBDG funds on deposit and did not take into account all of the federally
                 provided funds on deposit by the Council in the same bank. The dollar amounts
                 cited are at risk and if collateralized would result in savings in the event of a bank
                 failure. Although the Council needs to insure and collateralize all of its federal
                 deposits above $100,000 to cover deposits at their highest level, or $914,624 in
                 this instance, only CDBG funds totaling $188,177 3 would be put to better use.


    Conclusion


                 The City did not require the Council to collateralize the CBDG funds that it had
                 on deposit. This occurred because the City did not take into account all of the
                 federally provided funds on deposit by the Council in the same bank and reviewed
                 only CDBG accounts, which at year end were below the FDIC limit. A total of
                 $188,177 in CDBG funds was not adequately collateralized and thereby protected
                 against loss.

    Recommendations


                 We recommend that the director of the Office of Community Planning and
                 Development in Boston require the City to

                 3A. Obtain and provide evidence that all federal funds in excess of FDIC limits for
                     the Council are fully collateralized and thereby put $188,177 in CDBG funds
                     to better use by requiring and ensuring that these funds are adequately
                     protected.

                 3B. Ensure that the Council redistributes the funds to other banks to bring deposits
                     within FDIC limits if it is unable to obtain acceptable collateralization from the
                     current financial institution.

                 3C. Ensure that the City develops a system to monitor deposits of all federal funds,
                     including HUD-provided funds, to ensure that amounts in excess of FDIC
                     limits are fully and properly collateralized.


3
  The total for the two CDBG accounts was $209,177 ($110,990 plus $98,187) as of January 31, 2006. This amount
represents 21 percent ($209,177 divided by $1,014,624) of the total of $1,014,624 for all accounts. The amount of
CDBG funds covered by the $100,000 in FDIC insurance coverage is $21,000 ($100,000 times 21 percent), and the
amount of CDBG funds unprotected against loss is $188,177 ($209,177 minus $21,000).


                                                       15
                                RESULTS OF AUDIT



Finding 4: The City Did Not Ensure That Its Subrecipient Established
Procedures to Prevent Potential Conflicts of Interest
The City did not ensure that its subrecipient, the New Bedford Economic Development Council
(Council), did not issue loans that involved conflicts of interest. This deficiency occurred
because the City believed that certain loans were outside of its review process and was unaware
of any subrecipient loans that involved conflicts of interest. As a result, the subrecipient
approved two loans totaling $250,000 that created apparent conflicts of interest.


 A Loan Was Issued to a
 Corporation Owned by a Board
 Member

              Under the subrecipient agreements, the Council is authorized to make loans
              including loans funded from Economic Development Administration (EDA) funds.
              The Council’s loan program is subject to all CDBG regulations, including those
              pertaining to conflicts of interest, and prohibits the use of funds when conflicts of
              interest arise. The Council’s staff processes all loans, including those not reported to
              the City.

              The first conflict of interest noted occurred on June 24, 2004, when the Council
              provided a $100,000 loan to a corporation that was owned by a Council member.
              There was no documented evidence of full disclosure before issuance of this EDA-
              funded loan, and the loan was not required to be reported to the City because it did
              not create jobs for low-to-moderate-income persons. The director of the City’s
              Office of Housing and Community Development stated that the loan was not
              required to be reported to the City because it was outside of the City’s review
              process and the City had no jurisdiction over the review or approval of the loan.
              Although these EDA funds do not pass through the City, the City does bear certain
              responsibilities with regard to all loans approved by the Council since the Council is
              funded under subrecipient agreements administered by the City. Also, since the City
              provides substantial funding towards the Council’s loan program, it should ensure
              that the Council establishes adequate policies and procedures addressing conflict of
              interest issues. Although the loan was not reported to the City and the City may not
              have been aware of the loan, issuing loans to board members is not a prudent
              business practice because it could create apparent conflicts of interest and could lead
              to a pattern of conflicts in the future.




                                                16
The Council’s Chairman
Benefited Directly from the
Loan

             The second conflict of interest occurred on December 4, 2006, when the Council
             provided a loan that involved the Council’s chairman. The $150,000 loan was
             funded by $110,000 in CDBG funds and $40,000 in EDA funds. The loan was
             granted to provide working capital for the expansion of a company, and although the
             loan did not fund the expansion or construction, the construction work was
             completed by a firm owned by the Council’s chairman. Therefore, the chairman
             directly benefited from the loan, and the use of CDBG funds to provide a loan was
             improper because a conflict of interest was created. In addition, the details regarding
             the chairman’s personal involvement with the company receiving the loan were not
             disclosed to either the City or the Council before the loan was issued.

             Although the chairman’s personal involvement was not officially and fully disclosed
             to the City, loan documentation (facility report) submitted to the City indicated that
             the chairman’s construction firm was involved in the expansion work. The City was
             familiar with this construction firm and its owner because the firm had been awarded
             contracts through procurements initiated by other subrecipients of the City (see
             finding 3).


Conclusion


             The Council approved two loans totaling $250,000 that created apparent conflicts
             of interest. The practice of issuing loans to Council members or issuing loans that
             directly benefit Council members is not an efficient and effective use of federal
             funds and can lead to a pattern of conflicts in the future. These improprieties
             occurred because the City believed that certain loans were outside of its review
             process and were unaware that the loans involved conflicts of interest. The City
             recognizes that the Council must have a policy in place regarding conflicts of
             interest and full disclosure.


Recommendations


             We recommend that the director of the Office of Community Planning and
             Development in Boston require the City to

             4A. Implement adequate controls to ensure that subrecipient loans do not involve
                 conflicts of interest.



                                               17
4B. Ensure that the Council establishes adequate policies addressing conflicts of
    interest including requirements for providing full disclosure.




                                 18
                        SCOPE AND METHODOLOGY
We performed an audit of CDBG and HOME programs administered by the City’s Office of
Housing and Community Development. Our fieldwork was completed at the City’s Office of
Housing and Community Development located at 608 Pleasant Street, New Bedford,
Massachusetts, from September 2006 through January 2007. Our audit generally covered the
period October 1, 2002, through September 30, 2006, and was expanded to cover other periods
as needed. To accomplish our objectives, we

   •   Reviewed the Code of Federal Regulations, Office of Management and Budget circulars,
       HUD handbooks/guidebooks, and applicable HUD notices pertaining to the CDBG and
       HOME programs.
   •   Reviewed the City’s policies and procedures and subrecipient agreements with the Council,
       the City’s monitoring reports of the Council, and the results of prior independent public
       accountant and HUD reviews.
   •   Interviewed the City’s mayor and HUD, City, and Council personnel.
   •   Evaluated the City’s internal controls applicable to specific audit objectives.
   •   Determined whether CDBG and HOME program income earned by the City and
       subrecipients had been properly recorded and used in accordance with program
       requirements.
   •   Selected a non-representative sample of activities using the fiscal year 2004 Consolidated
       Annual Performance and Evaluation Report (CAPER) and traced data, including funds
       expended, status of activities, and reported accomplishments, from the CAPER to the
       City’s records. The activities selected ranked second and third in dollar amount in the
       CAPER, and the activities for the Council ranked first in the amount of funding received,
       relative to a service or non-construction related activity in program year 2004. For this
       review, we identified a total of 35 activities (universe) excluding items categorized as
       "Infrastructure," "Public Facilities Improvements," and "Park Improvements.”
   •   Evaluated the City’s procurement practices through a review of three large construction
       contracts selected from the 2004 CAPER. The selection of the construction contracts was
       based on the three activities ranked the highest in funding received for a construction-
       related activity under the “Public Facilities Improvements” category shown on the
       CAPER. For this review, we identified a total of five activities (universe) under “Public
       Facilities Improvements” that were most similar to construction work and verified that
       the contracts were awarded fairly and resulted in full and open competition.
   •   Evaluated the adequacy of the City’s administrative activities to ensure that
       administrative and planning costs did not exceed HUD funding limits and verified the
       reasonableness of salary allocations.
   •   Identified 18 loans reported by the Council that created and/or retained jobs for 2003,
       2004, and 2005. We verified that loans met the public benefits standard of creating a
       minimum of one full-time job or retaining a minimum of one full-time job for each
       $35,000 of investment and that at least 51 percent of the jobs were held by low- and
       moderate-income persons. We compared goals for the number of loans issued and new




                                               19
       jobs to be created under the subrecipient agreements to the results recorded by the City in
       its economic development monitoring reports.
   •   Reviewed the loan files for each of the 18 businesses that created/retained a job and
       verified that each file contained the following as required by the subrecipient agreements:
       (1) memorandum of agreement (showing the number of low- and moderate-income jobs
       to be created and retained by company), (2) employee income certification forms, (3)
       quarterly labor status report, (4) facility report (includes borrower analysis and financial
       analysis), and (5) final report whereby the Council reports that the business has fulfilled
       its goal of job creation. We also reviewed documentation to show that for job retention,
       jobs would have been lost without CDBG assistance.
   •   Selected a non-representative sample of loans that were issued to micro-enterprise
       businesses for review. From the universe of 11 loans, one loan was selected in each of
       the years (2003, 2004, and 2005) by largest dollar amount for a total of three loans to
       review.
   •   Selected a non-representative sample of five businesses for site visits from a universe
       containing 10 businesses that complied with or fulfilled the HUD requirement for jobs
       created/retained. The selection included businesses that created jobs showing the longest
       span of time between loan dates and compliance dates and ensuring that each program
       year was represented in the selection.
   •   Performed the site visits to confirm the job creation information reported by the City.
       During the site visits, we verified through review of payroll records that jobs
       created/retained actually existed and reviewed (1) payroll and employee records for
       businesses that retained jobs to ensure that income and family size were correct as
       reported on the employee certification forms; (2) the records of all employees who were
       hired and retained as well as those who had departed within the time the business
       received the loan through the compliance date; and (3) employee listings containing the
       names, addresses, start dates, and end dates of these employees.
   •   Grouped individual accounts together by bank for all banks used by the Council
       (subrecipient), reviewed ending balances for all accounts in the same bank for the 12
       months of fiscal year 2005 (beginning with July 2005 and ending June 2006), computed
       totals for all accounts by month to identify the month with the highest balance for the 12-
       month period ending June 30, 2006, and computed the uninsured funds in the aggregate
       that exceeded FDIC limits.
   •   Obtained a listing of all loans issued by the Council for $100,000 or more, covering the
       period from July 1, 2002, to June 30, 2006, and compared the names of individuals
       and/or principals of companies receiving the respective loans to names of Council board
       members, City Council members and all City employees to identify any potential
       conflicts of interest. For loans with apparent conflict of interest issues, we assured that
       adequate procedures were in place for proper underwriting of loans.
   •   Established that the City properly entered information on jobs created into the Integrated
       Disbursement and Information System.

We performed our review in accordance with generally accepted government auditing standards.




                                                20
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Controls to ensure that the grantee adequately monitors subrecipient
                      management functions,
              •       Controls over the safeguarding of HUD funds,
              •       Controls over administrative costs,
              •       Controls over the tracking of program objectives,
              •       Controls to ensure that the grantee adequately monitors subrecipient
                      reporting requirements,
              •       Controls over procurement and contracting, and
              •       Controls to prevent conflicts of interest.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:




                                               21
•   The City did not have adequate controls to ensure that its subrecipient issued
    the required number of loans and created the appropriate number of jobs.
•   The City did not have adequate controls to ensure that its subrecipient
    completed all of the quarterly reporting requirements for job creation and
    retention.
•   The City did not ensure that HUD funds maintained in subrecipient bank
    accounts were adequately protected against loss in case of a bank failure.
•   The City did not adequately monitor its subrecipients’ procurement and
    contracting processes.
•   The City failed to properly monitor subrecipient loans for potential conflicts
    of interest.




                              22
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation          Ineligible 1/   Unsupported     Unreasonable or      Funds to be put
        number                                    2/      unnecessary 3/       to better use 4/
             1C                              $750,000
             2A                                                                     $285,000
             3A                                                                     $188,177
          Totals                             $750,000                               $473,177


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.

4/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In Recommendation 2A, the $285,000 represents the current year funds that
     would be used more efficiently if the specific program requirements in past and current
     agreements are met. In Recommendation 3A, the $188,177 in HUD funds are at risk in
     the event of a bank failure; collateralizing these funds will protect them from this
     potential loss.




                                            23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                Auditee Comments




                        OIG Evaluation of Auditee Comments




                                       24
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         25
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         26
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




Comment 5




Comment 6




                         27
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 8



Comment 9




Comment 10




                         28
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 11




Comment 12




Comment 13




                         29
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         30
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 14




                         31
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 15




                         32
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 16




Comment 17




                         33
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 18




                         34
                         OIG Evaluation of Auditee Comments


Comment 1   The wording in the report was changed to show that the owner’s architect
            submitted the cost estimate.

Comment 2   The report was changed to note that the City committed to providing $250,000 in
            CDBG funding only for the first phase work. With regard to the cost estimate for
            the first phase, we could not specifically identify or verify the cost estimate for
            the first phase. It appeared that the cost estimate for the first phase may have
            been included in the overall estimate of $802,616. The City’s staff indicated that
            the first phase cost estimate was $677,624, and the architect failed to provide us
            the requested information regarding the cost estimate for the first phase. After we
            completed our audit work, we were informed by the City Director that the cost
            estimate for the first phase, totaling $365,272, was for emergency repair work
            necessary to stabilize the building. We believe that the architect should have
            prepared a separate cost estimate for the first phase work regardless of how the
            work was to be funded.

Comment 3   The statement that the base bid did not contain the costs associated with the
            reconstruction of the roof balustrade is a correct statement. Both the architect’s
            written bid assessment, dated February 22, 2005, and the bid form (attachment #
            3) provided in the Auditee’s response show that the construction of the roof
            balustrade was not included as part of the base bid, but was included as alternate
            work at an additional cost of $88,900.

Comment 4   The bid for the first subrecipient was not advertised in strict accordance with
            HUD guidelines and requirements. Although eight contractors were provided a
            copy of the invitation for bid, only one contractor actually submitted a bid. HUD
            regulations require that for sealed bidding to be feasible, two or more responsible
            parties must be willing and able to compete effectively. Also, soliciting proposals
            from specific contractors by providing a copy of the invitation for bid, by mail,
            was not necessarily, in our opinion, the optimal method for advertising this
            procurement. Since only one bid was received, it would have been prudent to re-
            advertise. If the additional advertising failed to provide more than one bid, the
            City should have obtained a waiver from HUD to allow the contract to be
            awarded noncompetitively. In the report we noted that the first subrecipient
            advertised in only the local newspaper, and because only one bid was received,
            we questioned that decision.

Comment 5   During our audit, we noted that the procurement for the second subrecipient was
            advertised in a local newspaper and in the Massachusetts Central Register.

Comment 6   Although the second subrecipient did follow proper procedures in developing a
            cost estimate, both subrecipients failed to perform a cost analysis after it was




                                             35
              determined that adequate competition was lacking. The report was modified to
              reflect the need for a cost analysis when competition is inadequate.

Comment 7     See explanation under Comment 2

Comment 8     See explanation under Comment 3

Comment 9     See explanation under Comment 4

Comment 10 In its response, the City suggests that there may have been a limited number of
           respondents to the bid because the work required experience working on historic
           properties and experience in the rehabilitation of older buildings. The State of
           Massachusetts has a considerable number of old and historic structures. We
           believe that there are a reasonable number of companies within the state (and
           within New England) that are qualified to work on historic structures.

Comment 11 See explanation under comment 3.

Comment 12 See explanation under comment 5

Comment 13 We acknowledge that the City agrees with OIG that the format for the cost
           estimate was confusing and that a separate cost estimate should have been
           prepared for the first phase work.

Comment 14 The City stated that the Council created or retained a total of 66 jobs, compared to
           an overall goal of 60 jobs as stated in the subrecipient agreement, and that the
           Council achieved this goal by issuing a total of 30 loans. We acknowledge that
           the Council may have met the national objectives by either creating or retaining
           jobs. However, the specific goals in its agreements with the City for the 3 year
           period (2003 to 2005) were to issue 36 loans and create 60 new jobs. These
           requirements were stipulated in the agreements and the Council failed to meet
           these specific goals when they issued only 30 loans and created only 39 new jobs.
           There were no specific requirements in the agreements with the City with regard
           to the actual number of jobs to be retained.

Comment 15 Although the loan was funded directly from a non-CDBG source, the City does
           bear certain responsibilities with regard to all loans made by the Council, since
           administrative salaries of the Council are supported primarily with CDBG funds.
           In addition, the subrecipient agreement executed between the Council and the
           City prohibits the use of funds when conflicts of interest arise. The Council’s
           loan program is under the umbrella of the subrecipient agreements, and therefore,
           they are generally subject to all CDBG regulations, including those pertaining to
           conflicts of interest. Since the Office of Housing and Community Development is
           the only City department that the Council reports to, this Office is the logical
           entity to provide oversight and direction concerning these matters.




                                              36
Comment 16 In the second instance of conflict of interest, the City had the ability to determine
           that there was a potential conflict. As stated in our report, the facility report
           submitted by the Council to the City revealed that the board Chairman’s construction
           company was involved in the expansion of an existing business. The City is familiar
           with this construction company, and its owner, because this company had been
           awarded contracts through procurements initiated by other subrecipients of the City.

Comment 17 We acknowledge that the Council has made significant changes to address the
           conflict of interest issue. These include implementing a conflict of interest policy
           and replacing the board Chairman.

Comment 18 The documents listed as attachments are not included in this Appendix as part of
           the auditee’s response, due to their size. Many of the documents had previously
           been obtained during the audit and were already included in the work papers. The
           remaining attached documents have subsequently been placed into the work
           papers. These documents are available upon request.




                                              37
Appendix C
    LOANS ISSUED THAT CREATED AND RETAINED JOBS FOR
               PROGRAM YEARS 2003 TO 2005
                                             2003

    Number                        Business             Program       Jobs       Jobs
                                                                    created   retained
       1         First café                         Mass. Dev 4 .      3          0
       2         Restaurant & tavern                EDA 5              2          0
       3         Grounds management                 CELF 6             1          0
       4         Pizza restaurant                   CELF-M 7           0          0
       5         Storage and truck rental           EDA                0          3
       6         First real estate entity           EDA                5          0
       7         Second real estate entity          Mass Dev.          4          0
       8         Carpet service                     CELF-M             0          0
       9         Seafood restaurant                 Mass. Dev.         1          0
      10         Candy store                        CELF-M             0          0
     Totals                                                           16          3

                                             2004

    Number                       Business              Program       Jobs       Jobs
                                                                    created   retained
      1        T-shirt store                        CELF-M             0          0
      2        Convenience store                    CELF-M             0          0
      3        Sand & gravel (first loan)           CELF-M             0          0
      4        Fish & chips                         CELF               0          2
      5        Freight company                      EDA                2          0
      6        Leather company                      EDA                0         26
      7        Dry cleaners                         CELF-M             0          0
      8        Carpet rental service                CELF               3          0
      9        Painting & powerwashing              CELF-M             0          0
    Totals                                                             5         28




4
  Massachusetts Development Loan
5
  Economic Development Administration Loan
6
  Community Economic Loan Fund
7
  Micro-Enterprise Loan Fund


                                              38
Appendix C

                                         2005

Number                    Business                 Program      Jobs       Jobs
                                                               created   retained
  1       Restaurant                            CELF              5          0
  2       Taxi service                          CELF-M            0          0
  3       Hot dog restaurant                    CELF-M            0          0
  4       Painting contractor                   CELF-M            0          0
  5       Second café                           CELF              1          0
  6       Sand & gravel (second loan)           EDA               2          0
  7       Boat propeller sales/repairs          EDA               1          0
  8       First fishing enterprise              EDA               3          0
  9       Car wash                              CELF              3          0
  10      Child day care center                 CELF Area         0          0
                                                Benefit Loan
  11      Second fishing enterprise             EDA               3         0
 Totals                                                          18         0




                                          39
Appendix D
                         QUARTERLY LABOR STATUS REPORTS
           Business            Jobs created or      Loan date         Final report                  Problems noted
                                  retained                                date
      Restaurant/tavern           2 created       May 10, 2004        Apr. 11, 2005       Reports not submitted in a timely
                                                                                              manner and reports missing
           First café             3 created       June 14, 2004       Sept. 25, 2006       Reports not submitted in a timely
                                                                                              manner and reports missing
     Storage/truck rental        3 retained       Dec. 18, 2003       Jan. 22, 2004       Reports not required (see note 8)
     Seafood restaurant          1 created        Sept. 29, 2003      Jan. 22, 2004              No problems noted
    First real estate entity     5 created        Nov. 12, 2003       Jan. 22, 2004      One report required and submitted but
                                                                                                       not dated
    Grounds management            1 created        Apr. 8, 2004       July 12, 2006        Reports not submitted in a timely
                                                                                              manner and reports missing
      Second real estate          4 created       Nov. 10, 2003       Jan. 22, 2004              No problems noted
            entity
      Leather company            26 retained      Feb. 1, 2005       Feb. 14, 2005          Reports not required (see note 7)
        Fish & chips             2 retained       Mar. 10, 2005       Apr. 1, 2005          Reports not required (see note 7)
      Freight company             2 created       Mar. 1, 2005       Mar. 24, 2005          Reports not required (see note 7)
     Carpet rental service        3 created       Dec. 6, 2004       Not applicable              No reports submitted
                                                                      (see note 9)
          Restaurant              5 created        Jan. 12, 2006     Sept. 20, 2006         Reports not submitted in a timely
                                                                                              manner and reports missing
    First fishing enterprise      3 created       Apr. 13, 2006      Not applicable              No reports submitted
                                                                      (see note 8)
        Boat propeller            1 created       Mar. 22, 2006      Not applicable               No reports submitted
         sales/repairs                                                (see note 8)
      Sand & gravel (2nd          2 created        Apr. 6, 2006      Not applicable               No reports submitted
             loan)                                                    (see note 8)
         Second café              1 created        Apr. 3, 2006      Not applicable               No reports submitted
                                                                      (see note 8)
           Car wash               3 created       May 31, 2006       Not applicable               No reports submitted
                                                                      (see note 8)
        Second fishing            3 created        Feb. 1, 2006      Mar. 28, 2006          Reports not required (see note 7)
          enterprise




8
  Since the time between the date of loan issuance and the final report date is less than two months, submission of
quarterly labor status reports would not be deemed necessary. The final report date is the date job creation/retention
goals are fulfilled, at which time businesses are no longer required to submit the quarterly labor status reports.
9
  Businesses have two years from the date of the loan to meet goals for job creation/retention, at which time a final
report is executed.


                                                         40
Appendix E

                       BALANCES IN TEN BANK ACCOUNTS
                            AS OF JANUARY 31, 2006


              Account number                      Amount         Federal account
              xxxxx684                            $ 16,937            EDA10
              xxxxx424                               32,098           EDA
              xxxxx700                              164,261           EDA
              xxxxx692                               25,704           EDA
              xxxxx416                              298,774           EDA
              xxxxx042                              110,990           HUD
              xxxxx069                               98,187           HUD
              xxxxx743                              267,473           EDA
              xxxxx192                                  100           EDA
              xxxxx232                                  100           EDA
                  Total dollar amount             $1,014,62411
                  Less FDIC coverage                 100,000
                   Uninsured amount               $ 914,624




10
     U.S. Economic Development Administration funding
11
     Rounded to the nearest dollar amount


                                                        41
Appendix F
                                           CRITERIA


Regulations at 24 CFR [Code of Federal Regulations]
   • 570.501(b) states that the recipient is responsible for ensuring that the CDBG funds are
       used in accordance with all program requirements. The use of designated public
       agencies, subrecipients, or contractors does not relieve the recipient of this responsibility.
       The recipient is also responsible for determining the adequacy of performance under
       subrecipient agreements and procurement contracts and for taking appropriate action
       when performance problems arise.
   • 570.503(a) states, in part, that the recipient shall sign a written agreement with the
       subrecipient. CFR 570.503(b)(2) further states that the recipient shall specify in the
       agreement with the subrecipient the particular records the subrecipient must maintain and
       the particular reports the subrecipient must submit to assist the recipient in meeting its
       recordkeeping and reporting requirements.
   • 85.20(b)(3) states that “effective control and accountability must be maintained for all
       grant and subgrant cash, real and personal property, and other assets. Grantees and
       subgrantees must adequately safeguard all such property and must assure that it is used
       solely for authorized purposes.”
    • 570.502(b) requires that subrecipients, except subrecipients that are governmental
        entities, shall comply with the requirements and standards of Office of Management and
        Budget (OMB) Circular No. A-110, “Uniform Administrative Requirements for Grants
        and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
        Organizations.” OMB Circular A-110, subpart C, section 21(b)(3), requires “effective
        control over and accountability for all funds, property and other assets. Recipients shall
        adequately safeguard all such assets and assure they are used solely for authorized
        purposes.”
    • 85.36(b)(9) requires grantees and subgrantees to maintain records sufficient for the basis
        of contract price.
    • 85.36(c)(1) requires all procurement transactions to be conducted in a manner providing
        full and open competition.
    • 85.36(d)(2)(i)(B) requires that for sealed bidding to be feasible, two or more responsible
        bidders are willing and able to compete effectively and for the business.
    • 85.36(d)(4) states that procurement by noncompetitive proposals may be used only when
        the award of a contract is infeasible under small purchase procedures, sealed bids, or
        competitive proposals and one of the following circumstances applies: (A) the item is
        available only from a single source; (B) the public exigency or emergency for the
        requirement will not permit a delay resulting from competitive solicitation; (C) the
        awarding agency authorizes noncompetitive proposals; or (D) after solicitation of a
        number of sources, competition is determined inadequate.
    • 85.36(d)(4(ii) for noncompetitive proposals further states that a cost analysis; i.e.,
        verifying the proposed cost data, the projections of the data, and the evaluation of the
        specific elements of costs and profits, is required.



                                                 42
    •   85.36(f)(1) requires that the subrecipient perform a cost or price analysis in connection
        with every procurement action, including modifications. The method and degree of
        analysis is dependent on the facts surrounding the particular procurement situation, but
        as a starting point, the City must make an independent estimate before receiving bids or
        proposals. A cost analysis will be necessary when adequate price competition is lacking.
    •   570.611 states that no employee of the recipient, officer, or elected official or appointed
        official of the recipient or of any designated public agencies or of subrecipients that
        receive funds, who exercise or have exercised any functions or responsibilities with
        respect to CDBG activities or who are in a position to participate in a decision-making
        process or gain inside information with regard to such activities, may obtain a financial
        interest or benefit from a CDBG-assisted activity or have a financial interest in any
        contract, subcontract, or agreement with respect to a CDBG-assisted activity, either for
        themselves or those with whom they have a business or immediate family ties, during
        their tenure or for one year thereafter.

The subrecipient agreement executed by the Council and the City
   • Part I, section I(E), states that the City will monitor the performance of the Council
       against goals and performance standards. Substandard performance, as determined by
       the City, will constitute noncompliance with this agreement. If action to correct such
       substandard performance is not taken by the Council within a reasonable period after
       being notified by the City, suspension or termination procedures will be initiated.
   • Part II (Scope of Services), section II, states that the Council is required to carry out
       project activities consistent with program objectives. These program objectives include
       requiring the Council to provide a minimum of 12 loans to eligible companies and/or
       micro-enterprises and to create a minimum of 20 new jobs through such loans.
   • Part II (Scope of Services), section IV, requires that, on a quarterly basis, the Council
       shall provide the City with reports detailing the monitoring of job creation and/or job
       retention initiatives for the administration of all applicable CDBG revolving loan funds
       and the monitoring of job retention initiatives within the administration of all applicable
       CDBG revolving fund activities. Part II, section IV(D), further requires the Council to
       complete and provide to the City a confidential quarterly labor status report for each loan
       every quarter (three months). This form shall be sent by the Council to all businesses
       receiving loan funds. This form will be used to monitor the compliance of loan activity
       with HUD regulations. This report shall contain the total number of employees of the
       borrower/debtor at the commencement of the loan, the total number of employees at the
       beginning of the reporting period, and the full-time/part-time equivalent jobs created and
       jobs retained during said quarter. The report shall also contain the nationality of the
       individuals filling the jobs as well as the signature of the debtor/employer.
   • Section II(21) states that the construction procurement standards established by the City
       shall be imposed by the Office of Housing and Community Development. The federal
       contract provisions established by HUD and adopted by the City shall be included in all
       construction contracts funded in whole or in part by CDBG funding.
   • Part I, section V(A), states that the subrecipient agrees to comply with the requirements
       of 24 CFR Part 570 (HUD CDBG regulations). The subrecipient also agrees to comply
       with all other applicable federal, state, and local laws, regulations, and policies governing
       the funds provided under this agreement.


                                                43
   •   Part I, section VIII(D)(4), states that the subrecipient agrees to abide by the provisions of
       24 CFR 570.611 with respect to conflicts of interest and covenants and that it presently
       has no financial interest and shall not acquire any financial interest, direct or indirect,
       which would conflict in any manner or degree with the performance of services required
       under this agreement. Further, no officer, member, or employee of the City and no
       members of its governing body and no other public official of the governing body of the
       locality or localities in which the project is situated or being carried out, who exercise any
       functions or responsibilities in the review or approval of the undertaking or carrying out
       of this project during their tenure in office or for one year thereafter, shall participate in
       any decision relating to this agreement which affects their personal interest or the interest
       of any corporation, partnership, or association in which they may be, directly or
       indirectly, interested or have any personal or pecuniary interest, direct or indirect, in this
       agreement.
   •   Part I, section VI(A)(2), states that subrecipients who are governmental and quasi-
       governmental agencies must comply with applicable sections of 24 CFR Part 85,
       “Uniform Administrative Requirements for Grants and Cooperative Agreements to State
       and Local Governments.”

According to FDIC rules, the basic insurance amount is $100,000 per depositor, per insured
bank. FDIC insurance covers all types of deposits received at an insured bank, including
deposits in checking accounts, interest-bearing negotiable order of withdrawals (NOW) accounts,
savings accounts, money market deposit accounts, and time deposits such as certificates of
deposit (CD). All accounts of a public unit in the same bank will be insured up to $100,000 in
the aggregate.

The U.S. Treasury Financial Manual, part 6, chapter 9000, describes federal agency requirements
to secure public money on deposit at financial institutions. Section 9010 of part 6, chapter 9000,
states “Agencies must ensure the security of public money. Public money includes, but is not
limited to, revenue and funds of the United States and any funds the deposit of which is subject
to the control or regulation of the United States or any of its officers, agents or employees.”
According to 6-9040.20—Securing Deposits with Collateral, “When an agency deposits public
money exceeding the recognized deposit insurance limit (generally $100,000), the agency must
request that the depositary pledge eligible collateral to secure the uninsured amount. The
depositary must pledge collateral with a Federal Reserve Bank (FRB) or an authorized third-
party custodian approved by the FRB. If a third-party custodian is used, the depositary must
notify the FRB by a trust receipt. The National Customer Service Area (NCSA) must ensure the
depositary pledges collateral according to the list of ‘Acceptable Collateral for Pledging to
Federal Agencies’ under 31 CFR 202 and 380.”




                                                44
